Case: 20-5630

Document: 7-2

Filed: 11/10/2020

No. 20-5630

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

TERRY L. OGLE,
Petitioner-Appellant,
V.

MIKE PARRIS,
Respondent-Appellee.

(2 of 4)

Page: 1

)
)
)
)
)
)
)
)
)

Nov 10, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: LARSEN, Circuit Judge.

Terry L. Ogle, a pro se Tennessee prisoner, appeals from the district court’s judgment
dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Ogle has filed an
application for a certificate of appealability (“COA”).
In 2000, Ogle pleaded guilty to first-degree premeditated murder, felony murder, and
aggravated robbery in Tennessee state court. The trial court sentenced Ogle to life imprisonment
without the possibility of parole. Ogle did not pursue a direct appeal of his convictions or sentence.
In November 2017, Ogle filed a pro se pleading that the trial court construed as a petition
for postconviction relief. That court denied the petition as untimely, and the Tennessee Court of
Criminal Appeals affirmed the trial court’s decision. Ogle v. State, Nos. E2018-01520-CCA-R3PC, E2018-01521 -CCA-R3-PC, E2018-01522-CCA-R3-PC, 2019 WL 2355033, at *4 (Tenn.
Crim. App. June 4, 2019). The Tennessee Supreme Court declined discretionary review.
In November 2019, Ogle filed his § 2254 petition in the district court. The district court
dismissed the petition as untimely and denied a COA. Ogle v. Parris, No. 3:20-CV-38-PLR-DCP,
2020 WL 2616665, at *4-5 (E.D. Tenn. May 22, 2020).
Under 28 U.S.C. § 2253(c)(1)(A), this court will grant a COA for an issue raised in a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. 28 U.S.C. § 2253(c)(2). A petitioner satisfies this standard by demonstrating

Case: 20-5630

Document: 7-2

Filed: 11/10/2020

Page: 2

No. 20-5630
-2that reasonable jurists “could disagree with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to deserve encouragement
to proceed further.” Buckv. Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v. Cockrell, 537
U.S. 322, 327 (2003)); see also Slack v. McDaniel, 529 U.S. 473, 484 (2000). When a claim is
denied on procedural grounds, the petitioner must show “that jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.” Slack, 529 U.S. at 484.
Reasonable jurists could not disagree with the district court’s conclusion that Ogle’s § 2254
petition was untimely. A one-year limitations period applies to federal habeas corpus petitions
filed by state prisoners. 28 U.S.C. § 2244(d)(1); Holbrook v. Curtin, 833 F.3d 612, 615 (6th Cir.
2016). This limitations period runs from the latest of four dates. 28 U.S.C. § 2244(d)(l)(A)-(D).
The relevant date for Ogle’s petition is the date on which his criminal “judgment became final by
the conclusion of direct review” of his convictions and sentence “or the expiration of the time for
seeking such review.” See § 2244(d)(1)(A); Holbrook, 833 F.3d at 615. This limitations period
is tolled during the time in which “a properly filed application for State postconviction or other
collateral review with respect to the pertinent judgment or claim is pending.” See § 2244(d)(2).
Ogle has not made a substantial showing that his § 2254 petition was timely filed. It is
undisputed that Ogle’s judgment of convictions and sentence was entered on May 1, 2000. He
had thirty day under Tennessee law to appeal that judgment. Term. R. App. 4(a). Since he did not
appeal, his convictions became “final” on May 31,2000, and the § 2244(d)(1) statute of limitations
began to run on June 1, 2000. See Fed. R. Civ. P. 6(a)(1). With no applicable period of tolling,
the statutory period for Ogle to timely file a § 2254 petition expired on June 1, 2001. Although
Ogle subsequently filed his state postconviction petition in 2017, that petition did not toll the
statute of limitations because the applicable one-year period under § 2244(d)(1) already had
expired by that time. See Parker v. Renico, 105 F. App’x 16, 18 (6th Cir. 2004) (citing McClendon
v. Sherman, 329 F.3d 490, 494 (6th Cir. 2003)). Nor did the state petition revive the limitations
period. See Eberle v. Warden, MansfieldCorr. Inst., 532 F. App’x 605, 609 (6th Cir. 2013) (citing
Vroman v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003)). Despite the expiration of this limitations

(3 of 4)

Case: 20-5630

Document: 7-2

Filed: 11/10/2020

Page: 3

No. 20-5630
-3period, Ogle argues that the statute of limitations should run from the date an amended state rule,
Tennessee Rule of Criminal Procedure 36.1, went into effect. However, he cites to no authority
establishing that an amended state procedural rule would create a new limitations period. Further,
Ogle asserts, in a conclusory manner, that his counsel filed a state habeas petition in 1997. Even
if true, this action would have predated his convictions and would not affect the limitations period.
Ogle did not file his § 2254 petition until November 2019, over eighteen years after the applicable
limitations period ended.
Although he did not timely file his § 2254 petition, Ogle argues that the district court should
have equitably tolled the applicable limitations period. The § 2244(d)(1) statute of limitations is
not a jurisdictional bar and, therefore, is subject to equitable tolling where a habeas petitioner
“shows ‘(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way’ and prevented timely filing.” Holland v. Florida, 560 U.S. 631,
649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S. 408,418 (2005)). This court applies equitable
tolling sparingly, and Ogle bears the burden of proving that he is entitled to it. See Robertson v.
Simpson, 624 F.3d 781, 784 (6th Cir. 2010).
Ogle has not made a substantial showing that he met this burden. In a conclusory manner,
he asserts that his affidavit of arrest contained false statements, but he does not provide any basis
for this assertion. Nor does he explain when he discovered these allegedly false statements or how
he was diligent in pursuing his rights.

Further, Ogle does not identify any extraordinary

circumstance which prevented him from pursuing his claims in a timely manner. To the extent
that he relies on his pro se status or lack of knowledge of the law, these factors are insufficient to
constitute an extraordinary circumstance and to excuse an untimely filing. See Keeling v. Warden,
Lebanon Corr. Inst., 673 F.3d 452, 464 (6th Cir. 2012).
Accordingly, Ogle’s COA application is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(4 of 4)

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE
TERRY D. OGLE,
Petitioner,
v.
MICHAEL PARRIS,
Respondent.

)
)
)
)
)
)
)
)
)

No.:

3:20-CV-38-PLR-DCP

MEMORANDUM OPINION
Petitioner Terry D. Ogle is a Tennessee inmate proceeding pro se on a federal habeas
petition pursuant to 28 U.S.C. § 2254, in which he seeks to challenge the legality of his
confinement under judgments of conviction for felony murder, aggravated robbery, and firstdegree premeditated murder. Having considered the submissions of the parties, the State-court
record, and the law applicable to Petitioner’s claims, the Court finds that the petition should be
denied.
I.

FACTUAL AND PROCEDURAL HISTORY
On May 1, 2000, Petitioner, along with Teddy Ogle and Ronnie Ray Ogle, pleaded guilty

to felony murder, aggravated robbery, and first-degree premeditated murder. Ogle v. State, No.
E2018-01520-CCA-R3-PC, E2018-01521-CCA-R3-PC, E2018-01522-CCA-R3-PC, 2019 WL
2355033, at *1 (Tenn. Crim. App. June 4, 2019), perm. app. denied (Tenn. Sept. 18, 2019).
Petitioner received an effective sentence of life imprisonment without the possibility for parole.
Id.
On November 2, 2017, Petitioner filed a pro se pleading styled “A Petition for Rule 60(b)”
in the trial court [Doc. 8-1 p. 33-36]. In that pleading, he argued that his sentence was illegal
because he was improperly extradited from Alabama, and the trial court improperly refused to

Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page lot 9 PagelD#:191

recuse itself [Id.]. The trial court construed the pleading as a petition for post-conviction relief,
because Petitioner sought to relitigate matters that were raised in the trial court [Id. at 42-43]. The
court dismissed the petition as untimely, as it was filed after the statute of limitations had expired
[Id. at 43].
On appeal, the Tennessee Court of Criminal Appeals (“TCCA”) found Petitioner’s brief
inadequate, because the issues presented for review were not supported by argument and did not
correspond to the issues raised in the argument portion of the brief. Ogle, 2019 WL 2355033, at
* 1 -2. The TCCA further concluded that the trial court properly construed Petitioner’s pleading as
a petition for post-conviction relief, and that the petition was, in fact, barred by the statute of
limitations. Id. at *2-3. The Tennessee Supreme Court declined discretionary review [Doc. 8-7].
On or about November 15, 2019, Petitioner filed the instant petition raising the following
claims, as paraphrased by the Court:
I.

The TCCA erred when it construed his trial court pleading as a petition for
post-conviction relief rather than a motion to correct an illegal sentence
under Tennessee Rule of Criminal Procedure 36.1.

II.

The trial court deprived Petitioner of his right to due process when it failed
to make findings of fact and conclusions of law in denying Petitioner relief.

III.

The trial court erred in refusing to recuse itself.

IV.

Petitioner’s guilty plea was not knowing and voluntary.

V.

Trial counsel was ineffective in failing to call defense witnesses.

VI.

The trial court erred by construing Petitioner’s pleading as a petition for
post-conviction relief and dismissing the petition without providing
Petitioner an opportunity to amend.

VII.

The appellate court and trial court erred in their construction of the petition.

VIII.

An illegal arrest and extradition led to an illegal sentence.

2
Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 2 of 9 PagelD#:192

IX.

Petitioner’s guilty plea was illegal because it was based on erroneous
information and an illegal statement.

X.

The trial court erred in failing to apply mitigating factors in imposing
Petitioner’s sentence.

XI.

Trial counsel rendered ineffective assistance in failing to utilize potential
mitigation evidence from a mitigation specialist.

XII.

Petitioner was denied a fair and impartial sentencing proceeding.

[Doc. 1]. The Court ordered Respondent to respond to the petition, and Respondent did so by
filing its answer on or about April 20, 2020 [Doc. 11]. Petitioner did not file a reply, and the time
to do so has passed [See Doc. 7]. This matter is ripe for review.
II.

DISCUSSION
A.

Timeliness
1.

Standard

The instant petition for writ of habeas corpus is subject to the statute of limitations of the
Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA”). Lindh v. Murphy, 521 U.S.
320, 337 (1997). Whether the instant petition is timely turns on the statute’s limitation period,
which provides:
(d)(1) A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of (A) the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or the laws of the
United States is removed, if the applicant was prevented from filing
by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
3
Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 3 of 9 PagelD#:193

recognized by the Supreme Court and made retroactively applicable
to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
28 U.S. C. § 2244(d)(1). The federal limitations period is tolled while a “properly filed application
for State post-conviction or other collateral review” is pending. See 28 U.S.C. § 2244(d)(2). In
“rare and exceptional circumstances,” the limitations period may be equitably tolled. Felder v.
Johnson, 204 F.3d 168, 170-71 (5th Cir. 2000) (citations omitted).
2.

Analysis

Petitioner’s convictions became “final” on May 31, 2000, when the time expired for him
to seek a direct appeal from his May 1, 2000, guilty plea [Doc. 8-1 p. 20-22]. See Tenn. R. App.
4(a) (requiring notice of appeal to be filed within 30 days after entry of judgment appealed from);
State v. Green, 106 S.W.3d 646, 650 (Tenn. 2003) (holding judgment of conviction entered upon
guilty plea becomes final thirty days after acceptance of plea and imposition of sentence).
Therefore, the statute of limitations began running the following day, June 1, 2000, and expired
on June 1, 2001.1 Petitioner did not file his federal habeas petition until on or about November
15, 2019, over eighteen years after the expiration of the federal statute of limitations. Therefore,
the petition is untimely under 28 U.S.C. § 2244(d)(1)(A).

i

The Court notes that an amended judgment was entered in Petitioner’s case on July 10,
2000 [Doc. 8-1 p. 22]. Because this did not increase Petitioner’s sentence, however, the Court
determines that it is not a new judgment that restarts the clock. See, e.g., Freeman v. Wainwright,
2020 WL 2394242, at *3 (holding “final judgment” in criminal case is the sentence, and
modification without resentencing is not a “final judgment” that restarts § 2244(d)’s clock).
However, even if this later date were used to restart the statute of limitations clock, the federal
limitations period still would have expired in July 2001.
4
Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 4 of 9 PagelD#:194

Petitioner argues that the federal statute of limitations commenced on July 1, 2016, when
Rule 36.1 of the Tennessee Rules of Criminal Procedure was amended [Doc. 1 p. 27-28].
However, amendment of a State rule of procedure does not satisfy any of the criteria in 28 U.S.C.
§ 2244(d)(l)(B)-(D), and therefore, revision of the rule did not reset the statute of limitations clock.
Additionally, because Petitioner’s State-court pleading was not filed until after the statute of
limitations had expired, it does not serve to toll the limitations period. See Vroman v. Brigano,
346 F.3d 598, 602 (6th Cir. 2003) (holding that while a properly filed application for state post­
conviction or other collateral relief may toll the statute of limitations, it “does not... ‘revive’ the
limitations period (i.e., restart the clock at zero); it can only serve to pause a clock that has not yet
fully run”).
Accordingly, the instant petition was not timely filed, and the Court can consider it only if
Petitioner establishes an entitlement to equitable tolling of the limitations period. See Allen v.
Yukins, 366 F.3d 396, 401 (6th Cir. 2004) (finding it is the petitioner’s burden to demonstrate
equitable tolling applies). To establish an entitlement to equitable tolling, a petitioner must
demonstrate “(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way” to prevent timely filing. Lawrence v. Florida, 549 U.S. 327, 336
(2007) (citing Pace v. DiGuglieltno, 544 U.S. 408, 418 (2005)). It is an exception that should be
granted “sparingly.” Keeling v. Warden, 673 F.3d 452, 462 (6th Cir. 2012).
Petitioner asserts that he is entitled to equitable tolling of the limitations period, as his
attorney filed a habeas petition in State court in 1997 that was never heard by the trial court [Doc.
1 p. 28-32]. However, he does not explain why he then waited nearly twenty years before filing
anything else in State court. Therefore, he has not shown a diligent pursuit of his rights.

5
Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 5 of 9 PagelD#:195

Moreover, he cannot show that any extraordinary circumstance stood in his way and
prevented a timely filing of the federal habeas petition. Petitioner accuses the State of concealing
his illegal seizure, alleging that the affidavit of arrest contained false and reckless statements [Id.
at 30-31]. However, he does not identify these allegedly false statements, nor does he explain
when he learned about the statements. Additionally, his claim that the State concealed evidence
is a conclusory allegation that fails to constitute an extraordinary circumstance that prevented the
timely filing of his habeas petition. See, e.g., O’Malley v. United States, 285 F.2d 733, 735 (6th
Cir. 1961) (“Conclusions, not substantiated by allegations of fact with some probability of verity,
are not sufficient to warrant a hearing” or relief). Therefore, the Court finds that equitable tolling
is not appropriate in this case, and the instant petition will be dismissed as untimely.
B.

State-Law Issues

The Court additionally finds that the claims Petitioner raises in Claims I-III and VI-VII are
based on the State court’s application of State law. The Supreme Court has “stated many times
that federal habeas corpus relief does not lie for errors of state law.” Estelle v. McGuire, 502 U.S.
62, 67-68 (1991) (internal quotation omitted).

Therefore, Petitioner’s claims regarding the

construction of his petition and the procedures used by the trial court to adjudicate the petition
cannot form the basis of federal habeas relief. Accordingly, Claims I-III and VI-VII are otherwise
properly dismissed as non-cognizable.
C.

Procedural Default

The Court also notes that the doctrine of procedural default limits federal habeas review in
this case. See O’Sullivan v. Boerckel, 526 U.S. 838, 848 (1999) (holding prisoner’s procedural
default forfeits his federal habeas claim). A procedural default exists in two circumstances: (1)
where the petitioner fails to exhaust all of his available State remedies, and the State court to which

6

Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 6 of 9 PagelD#:196

he would be required to litigate the matter would now find the claims procedurally barred2, and
(2) where a State court clearly and expressly bases its dismissal of a claim on a State procedural
rule, and that rule provides an independent and adequate basis for the dismissal. See, e.g., Coleman
v. Thompson, 501 U.S. 722, 729, 731-32, 735 n.l (1991).

A procedural default may be

circumvented, allowing federal habeas review of the claim, only where the prisoner can show
cause and actual prejudice for the default, or that a failure to address the merits of the claim would
result in a fundamental miscarriage of justice. Coleman, 501 U.S. at 750; see also Wainxvright v.
Sykes, 433 U.S. 72, 87, 90-91 (1977).
“Cause” is established where a petitioner can show some objective external factor impeded
defense counsel’s ability to comply with the State’s procedural rules, or that his trial counsel
rendered ineffective assistance. See id. at 753. The prejudice demonstrated to overcome the
default must be actual, not merely a possibility of prejudice. See Maupin v. Smith, 785 F.2d 135,
139 (6th Cir. 1986) (citations omitted); see also United States v. Frady, 456 U.S. 152, 170 (1982)
(holding prejudice showing requires petitioner to bear “the burden of showing, not merely that the
errors [in the proceeding] created a possibility of prejudice, but that they worked to his actual and
substantial disadvantage, infecting his entire [proceeding] with error of constitutional
dimensions”) (emphasis in original). A fundamental miscarriage of justice of occurs “where a
constitutional violation has probably resulted in the conviction of one who is actually innocent.”
Murray v. Carrier, 477 U.S. 478, 496 (1986).

2 To exhaust a claim in state court, a petitioner must have fairly presented the claim through
“one complete round of the State’s established appellate review process.” O’Sullivan, 526 U.S. at
845. In Tennessee, presentation to the TCCA is sufficient for § 2254(b) exhaustion. See Adams
v. Holland, 330 F.3d 398, 402 (6th Cir. 2003).
7
Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 7 of 9 PagelD#:197

Therefore, as stated above, failure to comply with a State procedural rule will foreclose
habeas review of a claim if the decision of the State court rested on the State-law rule, and it is
independent of the federal question and adequate to support the judgment. See, e.g., Walker v.
Martin, 562 U.S. 307,315 (2011). To determine whether a habeas claim is precluded by the failure
to observe a State procedural rule, a reviewing court must determine: (1) whether an applicable
rule exists with which the petitioner failed to comply; (2) whether the State courts actually enforced
the rule; (3) whether the rule is an adequate and independent State rule on which the State can rely
to foreclose review of the federal claim; and (4) whether cause exists for the petitioner’s failure to
follow the rule, and that he was prejudiced by the alleged error. Maupin v. Smith, 785 F.2d 135,
138 (6th Cir. 1986).
Here, Tennessee law requires that a petitioner must file a petition for post-conviction relief
within one year “of the date on which the judgment became final, or consideration of the petition
shall be barred.” Term. Code Ann. § 40-30-102(a). Petitioner’s amended judgment became final
on July 10, 2000, over seventeen years before he filed his petition for post-conviction relief [See
Doc. 8-1 p. 25]. The State court enforced the procedural sanction in this case, as it refused to reach
the merits of the petition due to the time bar. Ogle, 2019 WL 2355033, at *3. Federal courts have
concluded that the one-year statute of limitations period constitutes an independent and adequate
State-law ground for purposes of procedural default. See Hutchison v. Bell, 303 F.3d 720, 738-39
(6th Cir. 2002) (finding “Tennessee courts consistently enforce” the one-year limitations period
absent “court-recognized procedure for tolling” upon “specific due process grounds”); Moore v.
Phillips, No. l:14-cv-l 162, 2020 WL 475831, at *13 (W.D. Tenn. Jan. 29, 2020) (finding petition
time barred under State rule procedurally defaulted on habeas review). Petitioner makes no

8
Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 8 of 9 PagelD#:198

argument that cause and prejudice exist to excuse the default. Accordingly, the Court finds
Petitioner’s federal claims otherwise procedurally defaulted.
III.

CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11 (a) of the Rules Governing § 2254 Cases, this Court must issue or deny

a certificate of appealability (“COA”) upon the entry of a final order adverse to the petitioner.
Petitioner must obtain a COA before appealing this Court’s decision denying federal habeas relief.
See 28 U.S.C. § 2253(c)(1). Because the instant petition is rejected on procedural grounds,
Petitioner must demonstrate “that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling” in order for a COA to
issue. Slack v. McDaniel, 529 U.S. 473, 484 (2000). Applying this standard, the Court concludes
that a COA should be denied.
IV.

CONCLUSION
For the reasons set forth above, the instant petition will be DENIED, and this action will

be DISMISSED with prejudice. A certificate of appealability will be DENIED.
Further, the Court will CERTIFY that any appeal from this action would not be taken in
good faith and would be totally frivolous. Fed. R. App. P. 24.
AN APPROPRIATE JUDGMENT ORDER WILL ENTER.

F UNITED STATES DISTRICT JUDGE

9
Case 3:20-cv-00038-PLR-DCP Document 12 Filed 05/22/20 Page 9 of 9 PagelD#:199

APPENDIX

A.
No. 20-5630 Appeal for COA denied by United States Court of
Appeals for the Sixth Circuit; 11-10-2020; 2020 WL7346030

B.
Petition for Writ of Habeas Corpus under Section 2254 denied on
5-22-2020; 3:20-cv-38-PLR-DCP; U.SD.CT., E.D. TN. WL
2020WL2616665

C.
Ogle v. State, No. E2018-01522-CCA-R3-PC, 2019 2355033;
Tennessee Court of Criminal Appeals; denied on 6-4-19;
D.
Application for Permission to Appeal judgment of Tennessee
Court of Criminal appeals denied by Tennessee Supreme Court
on 9-18-19; 20 WL 2616664;

29

Conclusion

Petitioner is TERRY OGLE PRO SE. The petition for a writ of certiorari should be
granted. His Petition is submitted on

date.

/s/

CERTIFICATE OF SERVICE

I, TERRY OGLE, TDOC #

A do declare under penalty of perjury that a true

and exact copy of the foregoing Petition for the Writ of Certiorari has be sent to:
Assistant Attorney General Richard Davison Douglas. Federal Habeas Corpus Division
P.O. BOX 20207. Nashville. TN 37202. and to Office of the Clerk, Supreme Court
of the United States Washington DC 20543-0001, by depositing same in the U.S.
Mail. First Class Mail postage prepaid on this

day of March. 2021. here at Morgan

County Correctional Complex. P.O. Box 2000. Wartburg. TN 37887. Please see 28
U-S.C. g 1746; 18U.S.C. S 1621.
TERRY OGLE,

28

r

Petitioner

Page 1 of2

Ogle v. Parris | WestlawNext
2

'

V •

WESTLAW
Ogle v. Parris
United States Court ot Appeals, Sxtti Circuit. | November 10,2020 1 Not Reported in Fed. Rptr. | 2020 WL 7346030 (Approx. 3 pages)
2020 WL 7346030

Only the Westlaw citation is currently available.
United States Court of Appeals, Sixth Circuit.

Tern' L. OGLE, Petitioner-Appellant,
v.
Mike PARRIS, Respondent-Appellee.
No. 20-5630
FILED November 10,2020
Attorneys and Law Firms
Terry L. Ogle. Wartburg. TN. pro se.
Richard Davison Douglas, Assistant Attorney General. Office of the Attorney General,
Nashville, TN, for Respondent-Appellee.
Before: LARSEN, Circuit Judge.
ORDER
*1 Terry L. Ogle, a pro se Tennessee prisoner, appeals from the district court's judgment
dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Ogle has
fled an application for a certificate of appealability {"COA").
In 2000, Ogle pleaded guilty to first-degree premeditated murder, felony murder, and
aggravated robbery in Tennessee state court. The trial court sentenced Ogle to life
imprisonment without the possibility of parole. Ogle did not pursue a direct appeal of his
convictions or sentence.
In November 2017, Ogle filed a pro se pleading that the trial court construed as a petition for
postconviction relief. That court denied the petition as untimely, and the Tennessee Court of
Criminal Appeals affirmed the trial court's decision. Ogle v. State, Nos. E2018-01520-CCAR3-PC, E2018-01521-CCA-R3-PC, E2018-01522-CCA-R3-PC, 2019 WL 2355033, at *4
(Tenn. Crim. App. June 4, 2019). The Tennessee Supreme Court declined discretionary
review.
In November 2019. Ogle filed his § 2254 petition in the district court. The district court
dismissed the petition as untimely and denied a COA. Ogle v. Parris, No. 3:20-CV-38-PLRDCP. 2020 WL 2616665, at *4-5 (E.D. Tenn. May 22, 2020).
Under 28 U.S.C. § 2253(c)(1)(A), this court will grant a COA for an issue raised In a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. 28 U.S.C. § 2253(c)(2). A petitioner satisfies this standard by
demonstrating that reasonable jurists 'could disagree with the district court's resolution of his
constitutional claims or that Jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.' Buck v. Davis, 137 S. Ct. 759.773 (2017)
(quoting Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)); see also Slack v. McDaniel. 529
U.S. 473,484 (2000). When a claim is denied on procedural grounds, the petitioner must
show 'that jurists of reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.' Slack, 529 U.S. at 484.
Reasonable jurists could not disagree with the district court's conclusion that Ogle's § 2254
petition was untimely. A one-year limitations period applies to federal habeas corpus
petitions filed by state prisoners. 28 U.S.C. § 2244(d)(1): Holbrook v. Curtin, 833 F.3d 612,
615 (6th Cir. 2016). This limitations period runs from the latest of four dates. 28 U.S.C. §
2244(d)(1)(A)—(D). The relevant date for Ogle's petition is the date on which his criminal
■judgment became final by the conclusion of direct review' of his convictions and sentence
'or the expiration of the time for seeking such review.* See § 2244(d)(1)(A); Holbrook, 833
F.3d at 615. This limitations period is tolled during the time in which 'a property filed
application for State postconviction or other collateral review with respect to the pertinent
judgment or claim is pending.* See § 2244(d)(2).

A f*f £

iv

A

I'

https ://nextcorrectional.westlaw.com/Document/I87798a003eeelleba075d817282e94c2/V... 3/25/2021

Ogle v. Parris | WestlawNext

Page 1 of 5

y
WESTLAW
Ogle v. Parris
United Stales District Court, E D. Tennessee, Northern Division, at Knoxville. | May 22.2020 i SlipCopy I 2020WL2616665 (Approx. 5 pages)

2020 WI, 2616665
Only the Westlaw citation is currently available.
United States District Court, E.D. Tennessee, Northern Division,
at Knoxville.

Terry D. OGLE, Petitioner,
v.
Michael PARRIS, Respondent.
No.: 3!20-CV-38-PLR-DCP
Filed 05/22/2020
Attorneys and Law Firms
Terry D. Ogle, Wartburg, TN, pro se.
Richard Davison Douglas, Office of Tennessee Attorney General, Nashville, TN, for
Respondent.
MEMORANDUM OPINION
Pamela L Reeves, CHIEF UNITED STATES DISTRICT JUDGE
*1 Petitioner Terry D. Ogle is a Tennessee inmate proceeding pro se on a federal habeas
petition pursuant to 28 U S.C. § 2254, in which he seeks to challenge the legality of his
confinement under judgments of conviction for felony murder, aggravated robbery, and firstdegree premeditated murder. Having considered the submissions of the parties, the Statecourt record, and the law applicable to Petitioner's claims, the Court finds that the petition
should be denied.
I. FACTUAL AND PROCEDURAL HISTORY
On May 1, 2000, Petitioner, along with Teddy Ogle and Ronnie Ray Ogle, pleaded guilty to
felony murder, aggravated robbery, and first-degree premeditated murder. Ogle v. State. No.
E2018-01520-CCA-R3-PC. E2018-01521-CCA-R3-PC, E2018-01522-CCA-R3-PC, 2019
WL 2355033. at *1 (Tenn. Crim. App. June 4, 2019), perm. app. denied (Tern. Sept. 18,
2019). Petitioner received an effective sentence of life imprisonment without the possibility
for parole. Id.
On November 2, 2017, Petitioner filed a pro se pleading styled "A Petition for Rule 60(b)" in
the trial court [Doc. 8-1 p. 33-36], In that pleading, he argued that his sentence was illegal
because he was improperly extradited from Alabama, and the trial court improperly refused
to recuse itself [Id.]. The trial court construed the pleading as a petition for post-conviction
relief, because Petitioner sought to relitigate matters that were raised in the trial court [Id. at
42-43], The court dismissed the petition as untimely, as it was filed after the statute of
limitations had expired [Id. at 43],
On appeal, the Tennessee Court of Criminal Appeals ("TCCA") found Petitioner’s brief
inadequate, because the issues presented for review were not supported by argument and
did not correspond to the issues raised in the argument portion of the brief. Ogle, 2019 WL
2355033, at '1-2. The TCCA further concluded that the trial court properly construed
Petitioner's pleading as a petition for post-conviction relief, and that the petition was, in fact,
barred by the statute of limitations. Id. at *2-3. The Tennessee Supreme Court declined
discretionary review [Doc. 8-7],
On or about November 15, 2019, Petitioner filed the instant petition raising the following
claims, as paraphrased by the Court:
I. The TCCA erred when it construed his trial court pleading as a petition for post­
conviction relief rather than a motion to correct an illegal sentence under Tennessee
Rule of Criminal Procedure 36.1.
II. The trial court deprived Petitioner of his right to due process when it failed to make
findings of fact and conclusions of law in denying Petitioner relief.

Af f fc>^t)ix u B

J-^

https://nextcorrectional.westlaw.com/Document/I859f90709ea911ea8b0f97acce53a660/Vi... 3/25/2021

Ogle v. Parris | WestlawNext

Page 2 of 5

Vj
III. The trial court erred in refusing to recuse itself.
IV. Petitioner's guilty plea was not knowing and voluntary.
V. Trial counsel was ineffective in failing to call defense witnesses.
VI. The trial court erred by construing Petitioner's pleading as a petition for post-conviction
relief and dismissing the petition without providing Petitioner an opportunity to amend.
VII. The appellate court and trial court erred in their construction of the petition.
*2 VIII. An illegal arrest and extradition led to an illegal sentence.
IX. Petitioner's guilty plea was illegal because it was based on erroneous Information and
an illegal statement.
X. The trial court erred in failing to apply mitigating factors in imposing Petitioner’s
sentence.
XI. Trial counsel rendered ineffective assistance in failing to utilize potential mitigation
evidence from a mitigation specialist.
XII. Petitioner was denied a fair and impartial sentencing proceeding.
[Doc. 1], The Court ordered Respondent to respond to the petition, and Respondent did so
by filing its answer on or about April 20, 2020 [Doc. 11}. Petitioner did not file a reply, and the
time to do so has passed [See Doc. 7], This matter is ripe for review.
II. DISCUSSION
A. Timeliness
1. Standard
The instant petition for writ of habeas corpus is subject to the statute of limitations of the
Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA"). Lindh v. Murphy, 521
U.S. 320, 337 (1997). Whether the instant petition is timely turns on the statute's limitation
period, which provides:
(d){1) A1 -year period of limitation shall apply to an application for a writ of habeas corpus
by a person in custody pursuant to the judgment of a State court. The limitation period
shall run from the latest of (A) the date on which the judgment became final by the conclusion of direct review or
the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or the laws of the United States is removed, if the applicant
was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could have
been discovered through the exercise of due diligence.
28 U.S. C. § 2244(d)(1). The federal limitations period is tolled while a “properly filed
application for State post-conviction or other collateral review” is pending. See 28 U.S.C. §
2244(d)(2). In “rare and exceptional circumstances,” the limitations period may be equitably
tolled. Felder v. Johnson, 204 F.3d 168, 170-71 (5th Cir. 2000) (citations omitted).
2. Analysis
Petitioner’s convictions became “final" on May 31, 2000, when the time expired for him to
seek a direct appeal from his May 1, 2000, guilty plea [Doc. 8-1 p. 20-22], See Tenn. R. App.
4(a) (requiring notice of appeal to be filed within 30 days after entry of judgment appealed
from); State v. Green, 106 S.W.3d 646, 650 (Tenn. 2003) (holding judgment of conviction
entered upon guilty plea becomes final thirty days after acceptance of plea and imposition of
sentence). Therefore, the statute of limitations began running the following day, June 1,
2000, and expired on June 1,2001.1 Petitioner did not file his federal habeas petition until
•on or about November 15, 2019, over eighteen years after the expiration of the federal
statute of limitations. Therefore, the petition is untimely under 28 U.S.C. § 2244(d)(1)(A).

https://nextcorrectional.westlaw.com/Document/I859f90709ea911ea8b0f97acce53a660/Vi... 3/25/2021

,

Ogle v. Parris | WestlawNext

Page 3 of 5

*3 Petitioner argues that the federal statute of limitations commenced on July 1, 2016, when
Rule 36.1 of the Tennessee Rules of Criminal Procedure was amended [Doc. 1 p. 27-28).
However, amendment of a State rule of procedure does not satisfy any of the criteria in 28
U.S.C. § 2244(d)(1)(B)-(D), and therefore, revision of the rule did not reset the statute of
limitations clock. Additionally, because Petitioner’s State-court pleading was not filed until
after the statute of limitations had expired, it does not serve to toll the limitations period. See
Vroman v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003) (holding that while a properly filed
application for state post-conviction or other collateral relief may toll the statute of limitations,
it "does not... ’revive’ the limitations period (i.e., restart the clock at zero); it can only serve
to pause a clock that has not yet fully run”).
Accordingly, the instant petition was not timely filed, and the Court can consider it only if
Petitioner establishes an entitlement to equitable tolling of the limitations period. See Allen v.
Yukins. 366 F.3d 396, 401 (6th Cir. 2004) (finding it is the petitioner's burden to demonstrate
equitable tolling applies). To establish an entitlement to equitable tolling, a petitioner must
demonstrate "(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way” to prevent timely filing. Lawrence v. Florida,
549 U.S. 327, 336 (2007) (citing Pace v. DIGuglielmo, 544 U S 408, 418 (2005)). It is an
exception that should be granted ''sparingly.’’ Keeling v. Warden, 673 F.3d 452, 462 (6th Cir.
2012).
Petitioner asserts that he is entitled to equitable tolling of the limitations period, as his
attorney filed a habeas petition in State court in 1997 that was never heard by the trial court
[Doc. 1 p. 28-32], However, he does not explain why he then waited nearly twenty years
before filing anything else in State court. Therefore, he has not shown a diligent pursuit of
his rights.
Moreover, he cannot show that any extraordinary circumstance stood in his way and
prevented a timely filing of the federal habeas petition. Petitioner accuses the State of
concealing his illegal seizure, alleging that the affidavit of arrest contained false and reckless
statements [Id. at 30-31]. However, he does not identify these allegedly false statements, nor
does he explain when he learned about the statements. Additionally, his claim that the State
concealed evidence is a conclusory allegation that fails to constitute an extraordinary
circumstance that prevented the timely filing of his habeas petition. See. e g„ O’Malley v.
United States, 285 F.2d 733, 735 (6th Cir. 1961) (“Conclusions, not substantiated by
allegations of fact with some probability of verity, are not sufficient to warrant a hearing" or
relief). Therefore, the Court finds that equitable tolling is not appropriate in this case, and the
instant petition will be dismissed as untimely.
B. State-Law Issues
The Court additionally finds that the claims Petitioner raises in Claims l-lll and VI-VII are
based on the State court's application of State law. The Supreme Court has “stated many
times that federal habeas corpus relief does not lie for errors of state law." Estelle v
McGuire. 502 U.S. 62, 67-68 (1991) (internal quotation omitted). Therefore, Petitioner’s
claims regarding the construction of his petition and the procedures used by the trial court to
adjudicate the petition cannot form the basis of federal habeas relief. Accordingly, Claims l-lll
and VI-VII are otherwise properly dismissed as non-cognizable.
C. Procedural Default
The Court also notes that the doctrine of procedural default limits federal habeas review in
this case. See O'Sullivan v. Boerckel, 526 U.S. 838, 848 (1999) (holding prisoner's
procedural default forfeits his federal habeas claim). A procedural default exists in two
circumstances: (1) where the petitioner fails to exhaust all of his available State remedies,
and the State court to which he would be required to litigate the matter would now find the
claims procedural^ barred 2, and (2) where a State court clearly and expressly bases its
dismissal of a claim on a State procedural rule, and that rule provides an independent and
adequate basis for the dismissal. See, e.g., Coleman v. Thompson, 501 U.S. 722,729,73132, 735 n.1 (1991). A procedural default may be circumvented, allowing federal habeas
review of the claim, only where the prisoner can show cause and actual prejudice for the
default, or that a failure to address the merits of the claim would result in a fundamental
miscarriage of justice. Coleman, 501 U.S. at 750; see also Wamwright v. Sykes, 433 U.S.
72,87,90-91(1977).
*4 “Cause" is established where a petitioner can show some objective external factor
impeded defense counsel’s ability to comply with the State's procedural rules, or that his trial
counsel rendered ineffective assistance. See id. at 753. The prejudice demonstrated to

https://nextcorrectional.westlaw.com/Document/I859f90709ea91 Iea8b0f97acce53a660/Vi... 3/25/2021

& Ogle v. Parris | WestlawNext

I

Page 4 of 5

overcome the default must be actual, not merely a possibility of prejudice. See Maupin v.
Smith, 785 F.2d 135,139 {6th Cir. 1986) (citations omitted); see also United States v. Frady,
456 U.S. 152,170 (1982) (holding prejudice showing requires petitioner to bear "the burden
of showing, not merely that the errors (in the proceeding] created a possibility of prejudice,
but that they worked to his actual and substantial disadvantage, infecting his entire
[proceeding] with error of constitutional dimensions") (emphasis in original). A fundamental
miscarriage of justice of occurs "where a constitutional violation has probably resulted in the
conviction of one who is actually innocent." Murray v. Carrier. 477 U.S. 478. 496 (1986).
Therefore, as stated above, failure to comply with a State procedural rule will foreclose
habeas review of a claim if the decision of the State court rested on the State-law rule, and it
is independent of the federal question and adequate to support the judgment. See, e.g.,
Walker v. Martin, 562 U.S. 307, 315 (2011). To determine whether a habeas claim is
precluded by the failure to observe a State procedural rule, a reviewing court must
determine; (1) whether an applicable rule exists with which the petitioner failed to comply; (2)
whether the State courts actually enforced the rule; (3) whether the rule is an adequate and
independent State rule on which the State can rely to foreclose review of the federal claim;
and (4) whether cause exists for the petitioner’s failure to follow the rule, and that he was
prejudiced by the alleged error. Maupin v. Smith, 785 F,2d 135,138 (6th Cir. 1986).
Here, Tennessee law requires that a petitioner must file a petition for post-conviction relief
within one year “of the date on which the judgment became final, or consideration of the
petition shall be barred." Tenn. Code Ann. § 40-30-102(a). Petitioner’s amended judgment
became final on July 10, 2000, over seventeen years before he filed his petition for post­
conviction relief (See Doc. 8-1 p. 25], The State court enforced the procedural sanction in
this case, as it refused to reach the merits of the petition due to the time bar. Ogle. 2019 WL
2355033, at ’3. Federal courts have concluded that the one-year statute of limitations period
constitutes an independent and adequate State-law ground for purposes of procedural
default. See Hutchison v. Bell, 303 F,3d 720, 738-39 (6th Cir. 2002) (finding "Tennessee
courts consistently enforce" the one-year limitations period absent "court-recognized
procedure for tolling" upon “specific due process grounds”); Moore v. Phillips, No. 1.14-cv1162, 2020 WL 475831, at '13 (W.D. Tenn. Jan, 29, 2020) (finding petition time barred under
State rule procedurally defaulted on habeas review). Petitioner makes no argument that
cause and prejudice exist to excuse the default. Accordingly, the Court finds Petitioner's
federal claims otherwise procedurally defaulted.
III. CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11(a) of the Rules Governing § 2254 Cases, this Court must issue or deny
a certificate of appealability f’COA”) upon the entry of a final order adverse to the petitioner.
Petitioner must obtain a COA before appealing this Court's decision denying federal habeas
relief. See 28 U S.C. § 2253(c)(1). Because the instant petition is rejected on procedural
grounds, Petitioner must demonstrate "that jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural ruling" in order
for a COA to issue. Slack v. McDaniel, 529 U.S. 473, 484 (2000). Applying this standard, the
Court concludes that a COA should be denied.
IV. CONCLUSION
*5 For the reasons set forth above, the instant petition will be DENIED, and this action will be
DISMISSED with prejudice. A certificate of appealability will be DENIED.
Further, the Court will CERTIFY that any appeal from this action would not be taken in good
faith and would be totally frivolous. Fed. R. App. P. 24.
AN APPROPRIATE JUDGMENT ORDER WILL ENTER.
All Citations
Slip Copy, 2020 WL 2616665
Footnotes
1

The Court notes that an amended judgment was entered in Petitioner's case
on July 10, 2000 [Doc. 8-1 p. 22], Because this did not increase Petitioner's
sentence, however, the Court determines that it is not a new judgment that
restarts the clock. See. e.g., Freeman v. Wainwright, 2020 WL 2394242, at '3
(holding "final judgment" in criminal case is the sentence, and modification

https://nextcorrectional.westIaw.com/Document/I859f90709ea91 Iea8b0f97acce53a660/Vi... 3/25/2021

if

Page 5 of 5

Ogle v. Parris | WestlawNext

i '

without resentencing is not a '‘final judgment” that restarts § 2244(d)'s clock).
However, even if this later date were used to restart the statute of limitations
clock, the federal limitations period still would have expired in July 2001.
2

To exhaust a claim in state court, a petitioner must have fairly presented the
claim through "one complete round of the State’s established appellate review
process." O'Sullivan, 526 U.S. at 845. In Tennessee, presentation to the TCCA
is sufficient for § 2254(b) exhaustion. See Adams v. Holland, 330 F.3d 398,
402 (6th Cir. 2003).

End of
Document

WestlawNext ©2021 Thomson Reuters

© 2021 Thomson Reuters. No claim to original U.S Government Works.

.. THOMSON MUTER5
Thomson Reuters i&noTproviding tegst sdvice

https://nextcorrectional.westlaw.com/Document/I859f90709ea911ea8b0f97acce53a660/Vi... 3/25/2021

)

i.

Page 1 of 5

Ogle v. State | WestlawNext
WESTLAW
Ogle v. State
Court of Criminal Appeals of Tennessee, AT KNOXVILLE. \ June4,20l9 . SlipCopy ; 2019WL2355033 (Approx 5 pages)

2019 WL 2355033
Only the Westlaw citation is currently available.
SEE RULE 19 OF THE RULES OF THE COURT OF' CRIMINAL APPEALS RELATING TO
PUBLICATION OF OPINIONS AND CITATION OF UNPUBLISHED OPINIONS.
Court of Criminal Appeals of Tennessee,
. AT KNOXVILLE.

Teddy OGLE
v.
STATE of Tennessee
Terry Ogle
v.
State of Tennessee
Ronnie Ray Ogle
v.
State of Tennessee
No. E2018-01522-CCA-R3-PC
No. E2018-01521.-CCA-R3-PC
No. E2018-01520-CCA-R3-PC
Assigned on Briefs May 30. 2019
Filed 06/04/2019
Application for Permission to Appeal Denied by Supreme Court September 18,2019
Appeal from the Circuit Court for Jefferson County, No. 308445, Rex H. Ogle, Judge
Appeal from the Circuit Court for Jefferson County, No. 13811, Rex H. Ogle, Judge
Appeal from the Circuit Court for Jefferson County, No. 14075, Rex H. Ogle, Judge
Attorneys and Law Firms
Teddy Ogle, Terry Ogle and Ronnie Ray Ogle, Wartburg, Tennessee, Pro Se.
Herbert H. Slatery III, Attorney General and Reporter; Garrett D. Ward, Assistant'Attorney
General; James B. Dunn, District Attorney General; for the appellee, State of Tennessee.
Robert L. Holloway, Jr., J„ delivered the opinion of the court, in which John Everett Williams,
P.J., and Robert W. Wedemeyer, J., joined.
OPINION
Robert L. Holloway, Jr., J.
Messrs. Teddy and Terry Ogle filed a "Petition for Rule 60(b)' relief. Mr. Ronnie Ray Ogle
filed a “Petition for Writ of Habeas Corpus and/or Motion for Correction of [Ijllegal Sentence
and Amended Motion for Relief from Judgment." The trial court treated the pleadings as
petitions for post-conviction relief and dismissed the petitions because they were filed well
after the statute of limitations. This court consolidated the three appeals. After a thorough
review of the record and applicable law, we affirm the judgments of the trial court.
Procedural Background
'1 On May 1, 2000, pursuant to a negotiated plea agreement, Teddy Ogle (also known as
Ted Lee Ogle), Terry Ogle (also known as Terry Lee Ogle), and Ronnie Ray Ogle each
entered pleas of guilty to felony murder, aggravated robbery, and first degree premeditated
murder. Messrs. Teddy and Terry Ogle received an effective sentence of life without parole,
and Mr. Ronnie Ray Ogle received an effective sentence of life.
On November 2, 2017, Messrs. Teddy and Terry Ogle filed substantially identical pro se
pleadings entitled "A Petition for Rule 60(b)" (“Messrs. Teddy and Terry Ogle’s petitions")
Each claimed that he received an illegal sentence because he was improperly extradited \

\

IV

https://nextcorrectional.westlaw.com/Liiik/Document/FuUText?findType=Y&serNum=204... 3/25/2021

/r

*.

Page 2 of 5

Ogle v. State | WestlawNext

from Alabama, and (he trial court judge refused to recuse.1 The post-conviction court
interpreted both Rule 60 petitions to be a petition for post-conviction relief because both
Petitioners sought "to re-litigate matters that were raised in the trial court." The court found
that the petitions were barred by the statute of limitations and dismissed the petitions.
Messrs. Teddy and Terry Ogle timely filed a notice of appeal.
On May 31,2018, Mr. Ronnie Ray Ogle filed, pro se, a “Petition for Writ of Habeas Corpus
and/or Motion for Correction of [Illegal Sentence and Amended Motion for Relief from
Judgment" {Mr. Ronnie Ray Ogle's petition). He claimed that the affidavit of complaint did not
establish probable cause, that “life with possibility of parole" was an illegal sentence under
Tennessee Rule of Criminal Procedure Rule 36.1, that he was improperly extradited from
Alabama, that his sentence was excessive, and that his guilty plea was not knowingly
entered. The trial court also interpreted Mr. Ronnie Ray Ogle’s petition to be a petition for
post-conviction relief, determined that it was time barred, and summarily dismissed the
petition. Mr. Ronnie Ray Ogle timely filed a notice of appeal.
This court ordered the three appeals consolidated pursuant to Tennessee Rule of Appellate
Procedure 16.
Analysis
Messrs. Teddv and Terrv Pole's Petitions
Messrs Teddy and Terry Ogle filed a single joint brief in this court. The brief lists eight
"Issues Presented for Review" as required by Tennessee Rule of Appellate Procedure 27(a)
(4), but those issues do not correspond with the issues raised in the argument section of the
brief as required by Tennessee Rule of Appellate Procedure 27(a)(7). “[Ijssues must be
included in the Statement of Issues Presented for Review as required by Tennessee Rules
of Appellate Procedure 27(a)(4)" to be properly before an appellate court. Hawkins v Hart,
86 S W.3d 522, 531 (Tenn. Ct. App. 2001); see also Bunch v. Bunch. 281 S.W.3d 406, 410
(Tenn. Ct. App. 2008). “Issues which are not supported by argument, citation to authorities,
or appropriate references to the record will be treated as waived in this court." Tenn. R, Critn,
P. 10(b); see also State v. David G. Housler, No. M2002-00419-CCA-R3-CD, 2004 WL
367724, at *19 (Tenn. Crim. App. Feb. 27, 2004), affd on other grounds by 193 S.W.3d 476
(Tenn. 2006).
*2 Messrs. Teddy and Terry Ogle's brief is inadequate because the issues presented for
review are not supported by argument Despite our conclusions that the brief is inadequate,
we will determine whether the lower court properly construed the Rule 60 petitions as post­
conviction relief petitions because of the severity of a sentence of life without possibility of
parole. See State v. Sharod Wintord Moore. No. M2015-00663-CCA-R3-CD, 2016 WL
3610438, at *9 (Tenn. Crim. App. June 28, 2016).
Messrs. Teddy and Terry Ogle claim in their brief that the trial court erred “when it decided to
change [their] habeas petition/motion to correct or vacate judgment to one for
post[-]conviction relief(.]” However, Messrs. Teddy and Terry Ogle did not file a petition for
habeas corpus relief; instead, they filed a “Rule 60(b)" petition.
Both Federal Rule of Civil Procedure Rule 60(b) and Tennessee Rule of Civil Procedure
60.02 govern relief from civil judgments. Tennessee Rules of Civil Procedure "govern
procedure in the circuit or chancery courts in all civil actions, whether at law or in equity, and
in all other courts while exercising the civil jurisdiction of the circuit or chancery courts."
Tenn. R. Civ. P. 1; see State v. Mario Antoine Leggs, No. M2017-01963-CCA-R3-CO, 2018
WL 1353643, at *2 (Tenn. Crim. App. Mar. 15, 2018) (stating that the Tennessee Rules of
Civil Procedure do not apply in criminal cases). Messrs. Teddy and Terry Ogle’s reliance on
Tennessee Rule of Civil Procedure 60.02 is misplaced. Judgments of conviction are criminal
matters governed by the Tennessee Rules of Criminal Procedure. See Duane M. Coleman v.
State. No. M2012-00848-CCA-R3-PC, 2013 WL 948430, at *2 (Tenn. Crim. App. Mar. 11,
2013), no perm. app. filed; see also Andre L. Mayfield v. State, No. M2012-00228-CCA-R3HC, 2012 WL 5378078, at *2 (Tenn. Crim. App. Oct. 26, 2012), no perm. app. filed. Rather
than simply dismiss the Rule 60 petitions, the trial court gave Messrs. Teddy and Terry Ogle
some leeway and construed the pleading as a post-conviction relief petition.
Before the judgments of conviction became final, Messrs. Teddy and Terry Ogle could have
moved to withdraw their pleas. Tenn, R. Crim. P. 32(f)(2). After the judgments of conviction
became final, Messrs. Teddy and Terry Ogle's options for relief were limited. If the basis of
their claims was that their pleas were not entered voluntarily and knowingly or that Messrs.
Teddy and Terry Ogle received ineffective assistance of counsel concerning entering their

https://nextcorrectional.westlaw.com/Link/Document/FullText?findType=:Y&serNum=204... 3/25/2021

.-’■H

f.

Page 3 of 5

Ogle v. State | WestlawNext

guilty pleas, then the appropriate avenue for relief would be a petition for post-conviction
relief. See Tenn. Code Ann. § 40-30-103. Habeas corpus relief “is available only when it
appears from the face of the judgment or the record of the proceedings that a trial court was
without jurisdiction to sentence a defendant or that a defendant's sentence of imprisonment.
or other restraint has expired." Wyatt v. State, 24 S. W.3d 319, 322 (Tenn. 2000). Relief
pursuant to Tennessee Rule of Criminal Procedure 36.1 is available if the sentence is illegal.
State v. Wooden, 478 S.W.3d 585, 594 (Tenn. 2015). "[A]n illegal sentence is one that is not
authorized by the applicable statutes or that directly contravenes an applicable statute.”
Tenn. R. Crim. P. 36.1(a)(2).
The only "colorable claim" that can be determined from the Rule 60 petition was an
unsupported statement that “the sentences are the result of [ujnknowing guilty pleas not
understanding^ made." This claim, “if taken as true, in the light most favorable to the
petitioner, would entitle petitioner to relief under the Post-Conviction Procedure Act." Tenn.
Sup. Ct. R. 28, § 2 (H). This claim would not be a colorable claim for relief pursuant to
habeas corpus or Rule 36.1. Thus, the lower court did not err in construing Messrs. Teddy
and Terry Ogle’s Rule 60 petitions as petitions for post-conviction relief.
’3 Here, Messrs. Teddy and Terry Ogle were required to file the petition for post-conviction
relief "within one (1) year of the date on which the judgment became final, or consideration
of the petition shall be barred.” See Tenn, Code Ann. § 40-30-102(a)-(b). Messrs. Teddy and
Terry Ogle's "Amended Judgments” became final on August 10, 2000, over seventeen years
before they filed their post-conviction petitions. Moreover, they make no argument that they
are entitled to due process tolling. Thus, the lower court correctly ruled that the petitions
were barred by the statute of limitations and dismissed the petitions. Messrs. Teddy and
Terry Ogle are not entitled to relief on this ground, and we affirm the dismissal of their
petitions.
Mr. Ronnie Rav Pale's Petition
Mr. Ronnie Ray Ogle filed, pro se, a "Petition for Writ of Habeas Corpus and/or Motion for
Correction of (Ijllegal Sentence and Amended Motion for Relief from Judgment!.]’ He
claimed that the affidavit of complaint did not establish probable cause, that "life with
possibility of parole" was an illegal sentence, that he was improperly extradited from
Alabama, that his sentence was excessive, and that his guilty plea was not knowingly
entered.
As was the case with the brief filed by Messrs. Teddy and Terry Ogle, the twelve “Issues
Presented for Review’ in Mr. Ronnie Ray Ogle’s brief do not correspond at all with the four
issues addressed in the argument section as required by Tennessee Rule of Appellate
Procedure 27(a)(7). “[l]ssues must be included in the statement of issues presented for
review as required by Tennessee Rules of Appellate Procedure 27(a)(4) to be properly
before an appellate court." Hawkins. 86 S.W.3d at 531; Bunch. 281 S.W.3d at 410. "Issues
which are not supported by argument, citation to authorities, or appropriate references to the
record will be treated as waived in this court." Tenn. R. Crim. P. 10(b); see also David G.
Housler, 2004 WL 367724, at *19.
Mr. Ronnie Ray Ogle's brief is inadequate because the issues presented for review are not
supported by argument. Despite our conclusions that the brief is inadequate, we chose to
conduct a review of the issue relative to the trial court’s conversion of Mr. Ronnie Ray Ogle’s
petition to a post-conviction relief petition because of the severity of a life sentence. See
Sharod Wmford Moore, 2016 WL 3610438, at *9.
Colorable claim under Rule 36.1
Mr. Ronnie Ray Ogle claims that the trial court erred in converting his petition into a petition
for post-conviction relief because his petition presented a colorable claim for Rule 36.1 relief.
Mr. Ronnie Ray Ogle avers that he was “misled by the offer of ‘life with parole,' as
announced by the State in enticing [him] to plead guilty.”
A colorable claim under Rule 36.1 is a claim that taken as true and in a light most favorable
to movant, would entitle movant to relief. See Wooden. 478 S.W.3d at 587. “[A]n illegal
sentence is one that is not authorized by the applicable statutes or that directly contravenes
an applicable statute.” Tenn. R. Crim. P. 36.1(a)(2).
At the time Messrs. Teddy, Terry, and Ronnie Ray Ogle committed murder, there were only
three possible sentences for a person convicted of first degree murder; life, life without
possibility of parole, or death. See Tenn. Code Ann. § 39-13-202(c)(1}-(3) (1997). Petitioner
is correct in arguing that there is no parole for a life sentence; a person convicted of first

https://nextcorrectional.westlaw.com/Link/Document/Fu]lText?findType=Y&serNum=204... 3/25/2021

/

Ogle v. State | WestlawNext

r

Page 4 of 5

degree murder and sentenced to life must serve sixty years at one hundred percent “less
any sentence reduction credits up to 15%[.}" See State v. Robert Guerrero, No. M201401669-CCA-R3-CD, 2015 WL 2208546. at *1 (Tenn. Crim.App. May 11, 2015), perm. app.
denied (Tenn. Sept. 17, 2015); see also Tenn. Code Ann. § 40-35-501 (i)(l), (2)(A). If a
defendant is released before sixty years' service based on reduction credits, the sentence is
served, and the defendant is not on parole.
*4 Here, the judgments of conviction and the amended judgments of conviction show that
Mr. Ronnie Ray Ogle was sentenced to “life[.]"2 A sentence of life was authorized by the
applicable statute. Tenn. Code Ann. §40-35-501(i)(1). The life sentence was not and is not
an illegal sentence, and the claims in Mr. Ronnie Ray Ogle's petition are insufficient to state
a colorable claim for relief under Rule 36.1. Mr. Ronnie Ray Ogle is not entitled to relief on
this ground.
Colorable claim under habeas corpus
Additionally, Mr. Ronnie Ray Ogle argues that the lower court erred in construing his petition
as a petition for post-conviction relief because it alleged a colorable claim for habeas corpus
relief.
In Tennessee, habeas corpus relief is only available when "it appears upon the face of the
judgment or the record of the proceedings upon which the judgment is rendered that a
convicting court was without jurisdiction or authority to sentence a defendant, or that a
defendant’s sentence of imprisonment or other restraint has expired." Archer v. State, 851
S.W.2d 157,164 (Tenn. 1993) (internal quotation marks omitted) (quoting State v. Galloway,
45 Tenn. 326, 336-37 (Tenn. 1868)).
Here, Mr. Ronnie Ray Ogle claims the trial court was without jurisdiction or authority to
sentence him because he was improperly extradited from Alabama, the affidavit of complaint
was defective due to allegedly false statements contained therein, and the trial court refused
to recuse itself. Once Mr. Ronnie Ray Ogle entered pleas of guilty and the judgments of
conviction became final, he could no longer challenge his convictions “based on deficiencies
in the extradition process.” Sneed v. State, 872 S.W.2d 930, 931 (Tenn. Crim. App. 1993)
(citing Swaiv v. State. 457 S.W.2d 875 (Tenn. Crim. App. 1970)). Additionally, by entering a
plea of guilty, Mr. Ronnie Ray Ogle waived any claim regarding the trial court's refusal to
recuse itself and regarding allegedly false statements contained in the affidavit of complaint.
Therefore, his petition does not state a colorable claim for habeas corpus relief. There is no
merit to Mr. Ronnie Ray Ogle's claim that the trial court improperly converted his petition to a
post-conviction petition because his petition only contained a colorable claim for post­
conviction relief. The trial court’s only other alternative was to simply dismiss the petition
outright. Mr. Ronnie Ray Ogle is not entitled to relief on this ground.
Conclusion
The trial court's judgments dismissing the petitions filed by Messrs. Teddy, Terry, and Ronnie
Ray Ogle are affirmed.
All Citations
Slip Copy, 2019 WL 2355033
Footnotes
1

It is unclear from the appellate record whether Messrs. Teddy and Terry Ogle's
petition referred to Federal Rule of Civil Procedure 60(b), which discusses
relief from a civil judgment or order, Tennessee Rule of Criminal Procedure 60,
which only concerns the title and citation of the criminal rules, or Tennessee
Rule of Civil Procedure 60.02, which also provides relief from civil judgments
or order.

2

The transcript of the sentencing hearing was not included in the appellate
record.

End of
Document

WestlawNext. ©2021 Thomson Reuters

2021 Thomson Reuters. No claim to original U S. Government Worts.

* s.
p| THOMSON REUTERS
Thomson Rotifers is:ridi providing legal advice

https://nextcorrectional.westlaw.com/Link/Document/FullText?flndType=Y&serNum=204... 3/25/2021

